No. 20-1704

IN THE
SUPREME COURT of the UNITED STATES

RONRICO SIMMONS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
BRIEF OF AMICUS CURIAE RIGHTS BEHIND BARS
CERTIFICATE OF COMPLIANCE
(Word Count)
As required by Supreme Court Rule 33.1(h), I certify that the brief of amicus
curiae Rights Behind Bars contains 4324 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Oren Nimni
OREN NIMNI
Counsel of Record
RIGHTS BEHIND BARS
416 Florida Avenue NW, #26152
Washington, D.C. 20001
(202) 540-0029
oren@rightsbehindbars.org
Counsel for Amicus Curiae
July 9, 2021

